                Accounting System Deficiencies Found During
                            Incurred Cost Audit

                                    March 2005

                      Reference Number: 2005-1C-033




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            March 16, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Accounting System Deficiencies Found During Incurred Cost
                              Audit (Audit #20051C0206)



       The Defense Contract Audit Agency (DCAA) audited the contractor’s Federal Sector
       incurred costs. The audit included determining whether the contractor consistently
       complies with established accounting system internal controls for recording and
       reporting contract cost data for the Federal Government contracts. The DCAA stated
       that consistent application of sound accounting procedures should reduce errors in
       contract cost data, reduce the amount of manual processing of invoices for billing,
       reduce the errors in computing indirect rates, and facilitate the audit and evaluation of
       contract costs.
       The DCAA evaluation was limited to certain contractor accounting practices used in
       recording contract cost data. The DCAA did not perform sufficient audit procedures to
       constitute an examination of all applicable accounting system internal controls, in
       accordance with generally accepted Government Auditing Standards.
       The DCAA opined that certain contractor accounting practices used for recording and
       reporting contract cost data in connection with the contractor’s incurred cost
       submissions require corrective actions to improve the reliability of claimed contract
       costs. Specifically, the DCAA indicated the contractor lacks adequate Interdivisional
       Work Order (IWO) agreements, lacks adequate supporting data and descriptions for
       adjusting journal entries, and has inadequate recording of corporate allocations.
                                             2

During the examination of the Civil Division’s Fiscal Year (FY) 2001 incurred cost
submission, the DCAA identified $3,176,405 of claimed IWO costs that did not have an
IWO agreement and $151,549 that had IWO agreements but lacked an adequate
description of the nature of the work performed on Federal Government contracts.
During the audit of the Civil Home Office’s FY 2002 incurred cost submission, the DCAA
questioned claimed costs because the contractor did not provide adequate supporting
documentation for 83 of the 109 transactions selected for the review. In addition,
because the documentation provided did not contain adequate information from which
to determine whether the adjusting journal entries were reasonable and in compliance
with applicable Cost Accounting Standards (CAS), the Federal Acquisition Regulation
(FAR), and the terms of the Federal Government contracts, the DCAA stated that the
claimed direct and indirect costs may be materially misstated. The DCAA also stated
that the descriptions of the adjusting journal entries were vague and confusing, and, as
a result, it was unable to determine if they were necessary, reasonable, and in
compliance with applicable CAS and FAR provisions.
Additionally, the contractor does not have a process to properly identify and record in its
general ledger the corporate allocations received. The corporate allocations are
included in the incurred cost claims of the Federal Sector and its operating segments.
Consequently, the contractor was unable to timely reconcile the claimed corporate
allocations to the benefiting corporate segments.
The DCAA recommended the contractor establish and implement policies and
procedures that provide for adequate preparation, execution, documentation,
authorization, and recordkeeping of IWO agreements; maintain adequate supporting
documentation for each adjusting journal entry; use adequate descriptions in its
Cost Point accounting system for all adjusting journal entries; and provide proper
identification and recording of higher-tier allocations.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
